BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Record s

CERTIFICATE OF COMPLIANCE
No.20-132
THE MOODSTERS COMPANY,

Petitioner,

v.
THEWALT DISNEY COMPANY; DISNEY ENTERPRISES,
INC.; DISNEY CONSUMER PRODUCTS AND INTERACTIVE
MEDIA INC.; DISNEY INTERACTIVE STUDIOS, INC.;
DISNEY SHOPPING, INC.; PIXAR,

Respondents.

As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief for the Petitioner contains
2,998 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on November 24, 2020.

D'crnna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
I www.beckergallagher.com

8790 Governor's Hill Drive
I Suite 1 02
I Cincinnati, Ohio 45249

Franklin Square
1 300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
f\ic;tary Public, State of Ohio
My Commission Expires
February 14, 2023

